<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2019</title>
<body><pre>[Senate Hearing 115-]
[From the U.S. Government Publishing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2019

                              ----------                              


                         THURSDAY, MAY 17, 2018

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:03 a.m. in room SD-192, Dirksen 
Senate Office Building, Hon. Richard Shelby (chairman) 
presiding.
    Present: Senators Shelby, Collins, Murkowski, Daines, 
Hoeven, Durbin, Leahy, Tester, Udall, and Schatz.

                         DEPARTMENT OF DEFENSE

                      Department of the Air Force

                        Office of the Secretary

STATEMENT OF THE HON. DR. HEATHER WILSON, SECRETARY


             opening statement of senator richard c. shelby


    Senator Shelby. The subcommittee will come to order. This 
morning we are pleased to welcome Secretary Wilson and General 
Goldfein to review the Air Force 2019 budget request. Here the 
Air Force is requesting $156.3 billion, an increase of about 
$4.6 billion over amounts appropriated for 2018, and it's an 
amount consistent with the 2-year budget deal passed earlier 
this year by us.
    The Air Force budget request recognizes the challenges 
posed by long-term competition with China and Russia and builds 
on the progress of the 2018 budget to restore readiness, 
increase lethality, and cost effectively in the modernization 
era. Restoring readiness to support a total force of 500,000 
Airmen and over 5,000 aircraft must remain a top priority for 
this committee. However, investments that maintain our edge on 
the battlefield are also critically important, tomorrow's 
weapons, in other words. We must continue to address such areas 
as hypersonic weapons and artificial intelligence that will 
maintain our technological advantage into the future. At the 
same time, we must continue to manage programs currently in 
production, such as the F-35 Joint Strike Fighter and the 
tanker replacement program.
    Secretary Wilson and General Goldfein, we appreciate your 
service to this country, and we look forward to hearing how 
your budget balances all of these important priorities that we 
need for national security.
    [The statement follows:]
            Prepared Statement of Senator Richard C. Shelby
    The Subcommittee will come to order.
    This morning, I am pleased to welcome Secretary Wilson and General 
Goldfein to review the Air Force fiscal year 2019 budget request.
    The Air Force is requesting $156.3 billion, an increase of about 
$4.6 billion over amounts appropriated for fiscal year 2018, and an 
amount consistent with the 2-year budget deal passed earlier this year.
    The Air Force budget request recognizes the challenges posed by 
long-term competition with China and Russia, and builds on the progress 
of the 2018 budget to restore readiness, increase lethality, and cost-
effectively modernize.
    Restoring readiness to support a total force of 500,000 Airmen and 
over 5,000 aircraft must remain the top priority, however, investments 
that maintain our edge on the battlefield are also critically 
important. We must continue to address areas such as hypersonic weapons 
and artificial intelligence that will maintain our technological 
advantage into the future.
    At the same time we must continue to manage programs currently in 
production, such as the F-35 Joint Strike Fighter and the tanker 
replacement program.
    Secretary Wilson and General Goldfein, we appreciate your service 
and look forward to hearing how your budget balances all of these 
important priorities.
    Now I turn to the Vice Chairman, Senator Durbin, for his opening 
remarks. Thank you.

    Senator Shelby. Senator Leahy, do you have an opening 
statement?

                 STATEMENT OF SENATOR PATRICK J. LEAHY

    Senator Leahy. Just briefly, Mr. Chairman. Senator Durbin 
is delayed at a meeting with another committee, but he's going 
to join us shortly. But I am delighted to see the Secretary of 
the Air Force, Heather Wilson, here, and Chief of Staff of the 
Air Force, General David Goldfein.
    I know one of the top priorities, and these are two who 
really are working hard on this, that the Air Force has been 
changing the way it does business, especially in the way it 
purchases aircraft and other equipment. The reform of the 
acquisition system is promising.
    And with that, I want to just turn and yield to Senator 
Durbin.
    Senator Shelby. Senator Durbin.

                 STATEMENT OF SENATOR RICHARD J. DURBIN

    Senator Durbin. I apologize for being late. I'll put my 
opening statement in the record.
    Senator Shelby. Thank you. Without objection, it's so 
ordered.
    [The statement follows:]
            Prepared Statement of Senator Richard J. Durbin
    Mr. Chairman, I am pleased to join you in welcoming the Secretary 
of the Air Force, the Honorable Heather Wilson, and the Chief of Staff 
of the Air Force, General David Goldfein (GOLD-feen), to our hearing to 
review the Air Force's budget request for fiscal year 2019.
                 revolutionary changes to the air force
    Last September, the Air Force celebrated its 70th birthday. It's 
quite a different place from those early years.
    The Air Force has built on its flying mission and nuclear mission 
to incorporate new domains like space and cyber.
    The challenge for the future is to maintain this evolution by 
figuring out how to harness emerging technologies such as autonomous 
aircraft, artificial intelligence, and directed energy weapons.
                  budget increases and accountability
    The Air Force also has far more resources than 70 years ago. This 
hearing examines the $154 billion you have requested for 2019--a far 
cry from the $4.573 billion approved by Congress in 1948.
    Under the recent 2 year budget deal, the budget of the Air Force 
went up by 11 percent from 2017 to 2018, and by another 4 percent from 
2018 to 2019.
    Any organization with such a large influx of funding would struggle 
with these type of increases. But adding to the uncertainty is that in 
2020, sequestration returns, and the defense budget is again at the 
mercy of contentious budget talks.
    Secretary Wilson and General Goldfein, I would like to hear your 
plan for accountability over the increases Congress has already 
provided, and what plans you are making if they cannot be sustained.
                               conclusion
    Mr. Chairman, thank you for calling this important hearing, and I 
look forward to hearing from our witnesses.

    Senator Shelby. Madam Secretary, we welcome you to the 
committee today. Your written testimony will be made part of 
the record in its totality. You proceed as you wish.

            SUMMARY STATEMENT OF THE HON. DR. HEATHER WILSON

    Secretary Wilson. Thank you, Mr. Chairman and Ranking 
Member Durbin, thank you both, and thank you for putting my 
statement in the record. I would just highlight a few things in 
our opening statement.
    The fiscal year 2019 budget for the Air Force is well 
aligned with the National Defense Strategy that was published 
in January, and it recognizes that we face a more competitive 
and dangerous international security environment than we have 
seen in decades. We have returned to an era of great power 
competition, and that great power competition is the central 
challenge to U.S. security and prosperity.
    In the budget that we presented, there really are two bold 
moves and one continuing effort. The continuing effort is to 
restore the readiness of the Force so that we can win any fight 
anytime. The two bold moves have to do with, first, 
accelerating defendable space so we can deter and defend and 
prevail against anyone who seeks to deny our free use of space 
in crisis or conflict. There is an 18 percent increase in the 
Air Force budget from the last 5-year defense plan to this 5-
year defense plan, particularly related to space.
    The second bold move in this budget has to do with 
multidomain operations. And what do I mean by that? The 
National Defense Strategy guides us to reduce our spending on 
things that only work in uncontested air and space. A new 
version of JSTARS, the Boeing 707-sized airplane that flies 
over our Army and tells them what's in front of them on the 
ground can't get close enough on the first day of any fight, 
particularly against Russia. Russian and Chinese surface-to-air 
missiles have more range, and the plane would be shot down in 
that first day of conflict.
    We had to find another way, and our budget gives us a path 
forward by proposing to fuse data from space, manned, unmanned 
platforms to be able to see in front of the Army on day one so 
that we can protect them on day one.
    The question arises, Could we do both? Could we 
recapitalize JSTARS and also build an advanced battle 
management system that could operate in a contested 
environment? Yes, we could do both, and it costs about $7 
billion more than what we have proposed in our budget.
    As we move forward in finalizing this year's budget, I 
would ask for your thoughtful consideration of this particular 
issue, which is one of the ones that is important for the 
future of the Air Force and our national defense.
    With that, I would like to turn to General Goldfein for a 
few comments.
STATEMENT OF GENERAL DAVID L. GOLDFEIN, CHIEF OF STAFF 
            OF THE AIR FORCE
    General Goldfein. Thank you, Madam Secretary.
    And good morning, Chairman Shelby, Vice Chairman Durbin, 
and distinguished members of the committee. It's an honor for 
Secretary Wilson and me to represent the 670,000 Airmen, Active 
Guard, Reserve, and civilians as we update you on the Air Force 
and our budget proposal for 2019.
    And I want to begin by thanking this committee for its 
leadership in delivering a historic budget that will continue 
the rebuilding of the U.S. military as we return to an era of 
great power competition. And as Secretary Wilson correctly 
stated, this budget directly aligns with the National Defense 
Strategy, enabling combat-credible air and space power to deter 
our adversaries, and should deterrence fail, to win in the 21st 
century.
    So as Airmen, we understand that we are first expected to 
defend the homeland and our allies with a safe, secure, and 
effective nuclear deterrent. And on our worst day as a Nation, 
it's our duty to get the President where he needs to be, when 
he needs to be there, and keep him connected to his leadership 
team and forces in the field.
    We also understand that we are expected to own the high 
ground with air and space superiority, freedom to maneuver, and 
freedom from attack. And we're expected to project America's 
military power forward with our allies and partners as we bring 
global vigilance, global reach, and global power to the joint 
team.
    And this historic budget continues the recovery that you 
set in motion in 2017. And let me just offer you a couple of 
examples of progress we're making.
    In 2016, our pilots averaged just 17 hours of flying time 
per month. And we advanced that number to 19 hours per month in 
fiscal year 2018, and with this budget, we begin restoring 
pilot proficiency to 21 hours per month in fiscal year 2019. 
Pilots join to fly, and this budget gets them back in the air.
    In 2016, we faced a shortage of over 4,000 maintainers. In 
2018, we'll reduce that number to near zero. Now, 10 years of 
maintenance experience lost cannot be gained overnight, but 
this budget sets the foundation for a full recovery.
    And with your continued support of this budget, for the 
first time in years we have a National Security Strategy, a 
National Defense Strategy, and a Nuclear Posture Review, and 
the resources required to support them, strategic alignment. Or 
said another way, has been argued so well by this committee, 
for the first time in years we have a strategy-driven budget 
versus a budget-driven strategy. And on behalf of all of our 
Airmen, I can only say thank you.
    But we also know that we only have visibility on this plan 
through 2019, and a return to the disastrous budget caps of BCA 
(Business Case Analysis) in 2020 would repeat the damage caused 
by the 2013 sequester, from which we, as an Air Force, are 
still recovering. And with your help, we can not only avoid a 
return to BCA, but we can continue building on our current 
momentum with on-time appropriations.
    And finally, Secretary Wilson and I, we are acutely aware 
that every dollar we are given is a dollar that was earned by 
Americans, and it is our solemn obligation and our duty to 
remain good stewards of those dollars.
    So thank you again for the opportunity to testify this 
morning on behalf of all Airmen who are standing the watch.
    And we look forward to your questions.
    [The statement follows:]
           Prepared Statement of Hon. Dr. Heather Wilson and 
                       General David L. Goldfein
                         strategic environment
    The United States now faces a more competitive and dangerous 
international security environment than we have seen in generations.
    Great power competition has reemerged as the central challenge to 
U.S. prosperity and security. China is rapidly modernizing its military 
and seeks regional preeminence. Russia aims to restore its national 
prestige and has shown its willingness to use military force and 
coercion in Europe and the Middle East. North Korea uses the threat of 
nuclear weapons to secure the survival of the regime. Iran has been a 
source of instability in the Middle East through the sponsorship of 
terrorism and exploitation of internal conflict in the region. Violent 
extremist organizations rooted in the Middle East, North Africa, and 
South Asia create instability and threaten the U.S. homeland and our 
allies and partners.
    With global trends and intensifying pressure from major 
challengers, our relative advantage in air and space is eroding in a 
number of critical areas. The projected mismatch between demand and 
available resources has widened. Any American weakness emboldens 
competitors to subvert the rules-based international order and 
challenge the alliance and partnership network that underpins it.
    In accordance with the National Defense Strategy, the Air Force 
must build a more lethal and ready force, strengthen alliances and 
partnerships, and deliver greater, more affordable performance. The Air 
Force requires the right size and mix of agile capabilities to compete, 
deter, and win in this environment, brought to bear by Airmen steeped 
in the business of joint and combined warfare.
                     air and space power in demand
    Air and space power is indispensable to every joint force 
operation. The Air Force's first responsibility is to integrate air and 
space capabilities across the domains--delivering unmatched global 
advantage as an equal member of the joint team. We must be ready to 
design and lead joint and combined operations in support of national 
objectives.
    We have five core missions:
    Air and Space Superiority . . . freedom from attack and freedom to 
attack. Air and space superiority gives our military and coalition 
forces the freedom to operate. Accelerating the campaign to defeat 
ISIS, Airmen conducted more than 172,000 sorties and 98,000 precision 
air strikes last year--over 70 percent of the total in the campaign--to 
support Iraqi and partner forces in Syria and Iraq. In the NATO-led 
mission in Afghanistan, the Air Force executed a sustained air 
interdiction campaign of over 4,000 sorties to support Afghan partners, 
targeting Taliban so-called safe zones, command and control nodes, 
illicit revenue-generating ventures, and logistical networks. In space, 
the Air Force operates 6 constellations and 12 satellite systems vital 
to national security that provide communications, command and control, 
missile warning, nuclear detonation detection, weather, and GPS for the 
world. In 2017, the Air Force supported 28 space launches from our 
facilities at Vandenberg and Cape Canaveral, a 40 percent increase from 
2016. We are planning 45 launches in 2018, sending both national 
security payloads and an increasing number of commercial payloads into 
orbit.
    Global Strike . . . any target, any time. Airmen maintain the 
continuous alert of our missile forces. Last year, Airmen conducted 
16,425 intercontinental ballistic missile alert tours and 248 missile 
convoys across 3 missile wings and 5 States. Our bombers flew 580 
missions in the Indo- Pacific, strengthening security and stability in 
the region and reassuring our partners. Reinforcing NATO's eastern 
flank, American bombers flew 70 assurance and deterrence missions.
    Rapid Global Mobility . . . delivery on demand. In 2017, Airmen 
transported nearly 1 million personnel, the equivalent of moving the 
population of Montana, and delivered over 738 million pounds of 
warfighting equipment and humanitarian supplies, the weight of 82 U.S. 
Capitol Domes. Our tanker force extended joint power projection at 
intercontinental distances by passing more than 1 billion pounds of 
fuel in-flight, which could fill the Rose Bowl to the top, while 
aeromedical evacuation Airmen airlifted more than 5,000 patients to 
safety. Closer to home, Airmen delivered 13,600 short tons of relief 
supplies following the string of record- setting hurricanes, and helped 
combat multiple wild fires in the western United States.
    Intelligence, Surveillance, and Reconnaissance (ISR) . . . global 
eyes and ears on adversaries. Last year, the Air Force was tasked with 
nearly 25,000 ISR missions, collected 340,000 hours of full motion 
video, and produced 2.55 million intelligence products--which averages 
almost 5 products every minute that close intelligence gaps and support 
target analysis and development. Persistent ISR closely tied to 
precision weapons from the ground and air has been a linchpin element 
in the destruction of ISIS.
    Command and Control . . . right info, right person, right time. 
Last year, our E4-B National Airborne Operations Center--the survivable 
mobile command center--conducted 53 alert tours and provided travel 
support to the Secretary of Defense. Our E-8C Joint Surveillance Target 
Attack Radar System flew over 5,000 hours, enabling a range of support 
for Combatant Commanders from command and control in the ISIS campaign 
to the interdiction of over 12,500 kilograms of illicit drugs before 
they entered our Nation's borders. The E-3 Airborne Warning and Control 
System was integral to coordinating search and rescue efforts during 
the 2017 hurricane season.
    Increasingly, we are conducting these missions with allies and 
partners. The Air Force engaged in more than 85 exercises with 
international partners last year, including five focused on high-end 
combat. We furthered the international role of the F-35, training with 
partners in both Europe and South Korea, and began delivery of F-35s to 
Israel, Norway, and Italy. We concluded 42 International Arms 
Cooperation agreements worth $2.95 billion, including a cost-sharing 
agreement that launched the ninth Wideband Global SATCOM satellite 
which enables international partners access to shared high-capacity 
global communications. In 2017, Foreign Military Sales expanded nearly 
three-fold from the year prior to $22.7 billion. These sales strengthen 
the United States' position as the security cooperation partner of 
choice, and expand interoperable airpower.
                          strategic direction
    The Air Force budget request of $156.3 billion for fiscal year 2019 
builds on the progress made in 2018 to restore the readiness of the 
force, increase lethality, and cost-effectively modernize. Sustaining 
these efforts requires predictable budgets at the requested funding 
levels.
    In alignment with the National Defense Strategy, this budget 
prioritizes long-term competition with China and Russia.
    This budget moves the Air Force in the direction of multi-domain 
operations. Future wars will be won by those who observe, orient, 
decide, and act faster than adversaries in an integrated way across 
domains--land, sea, air, space, and cyberspace.
    The squadron remains the foundational fighting unit of the Air 
Force. The Air Force currently has 301 front line operational squadrons 
\1\ to execute our core missions, supported by squadrons that directly 
enable the fight and provide reachback capability. Based on the new 
National Security Strategy, National Defense Strategy, and Nuclear 
Posture Review, the Air Force is in the process of determining how many 
squadrons we need to deliver the combat capability required to execute 
the new defense strategy.
---------------------------------------------------------------------------
    \1\ Fighters, bombers, airlift, intelligence/surveillance/
reconnaissance, command and control, special operations, space, cyber, 
missile, and personnel recovery squadrons are counted here.
---------------------------------------------------------------------------
                           continuing efforts
    Some elements of this budget continue programs and strategies that 
are well established:
    Readiness.--Restoring readiness to win any fight, any time remains 
a primary objective. The budget funds 1.5 million flying hours--1.2 
million executable peacetime training flying hours and 300,000 flying 
hours supporting overseas contingency operations--at a cost of $8.7 
billion. We propose to buy 54,443 preferred munitions to reverse 
previous declining inventories at a cost of $1.8 billion. This budget 
also funds training ranges, simulators, instructors, and key 
infrastructure required to improve the quality of our training in 
alignment with the National Defense Strategy prioritization of peer 
competition.
    People.--The fiscal year 2019 budget proposal represents an 
increase in the size of the Air Force by 4,700 Airmen.\2\ Our 5-year 
plan calls for achievable, steady growth to approximately 339,000 
active duty Airmen while we simultaneously review existing manning 
across the active duty, guard, and reserve components. In addition, 
this budget submission funds important support to Airmen and families 
with a 2.6 percent military pay raise, increased housing and 
subsistence allowances, and family support programs. We will invest in 
purposeful development of Airmen to strengthen our joint warfighting 
excellence--integrating education, training, and experience for our 
leaders and teams.
---------------------------------------------------------------------------
    \2\ Total Force number including active duty, guard, and reserve.
---------------------------------------------------------------------------
    Nuclear Deterrence.--Our budget proposal supports the Defense 
Department's principal priority to maintain a safe, secure, and 
effective nuclear deterrent that safeguards the homeland, assures 
allies, and deters adversaries. The budget improves our nuclear 
command, control, and communication systems as directed in the Nuclear 
Posture Review. It initiates development of B-52 replacement engines, 
continues development of the Long Range Stand Off missile, and 
continues development of the replacement for the Minuteman III 
intercontinental ballistic missile.
    Modernization: The budget funds our priority modernization 
initiatives with the purchase of 48 F-35 fighters, 15 KC-46 tankers, 
and continued development of the B-21 bomber. This year, we will decide 
the new T-X advanced trainer aircraft and the replacement for the UH-1 
helicopter. Critical to mission success is continued investment in our 
classified portfolio, which will be briefed in a closed session.
             changes to implement national defense strategy
    Some elements of this budget reflect a change to confront the 
reemergence of great power competition:
    Space Superiority.--The fiscal year 2019 budget represents a 33 
percent increase from last year in the research, development, test, and 
experimentation budget for Air Force Space to meet the threat from 
China and Russia. We will build more jam-resistant GPS satellites, 
improve missile warning, improve space situational awareness, and 
increase our ability to defend our Nation's most vital assets on orbit. 
We are taking advantage of changes in legislative authorities to return 
program decision authorities back to the Air Force, including 14 of the 
19 Major Defense Acquisition Programs within the space portfolio. Using 
tools such as the Defense Acquisition Workforce Development Fund, we 
are investing in our people, ensuring they have the right skills and 
training to succeed.
    Multi-Domain Command and Control.--Technological advances are 
changing the character of warfare. The budget proposes to change the 
way we execute battlefield management command and control in the multi-
domain environment. We propose to modernize 7 E-3 Airborne Warning and 
Control aircraft (AWACS) and keep the current E-8C Joint Surveillance 
Target Attack Radar System (JSTARS) operational through the mid-2020s, 
as we develop and transition to an advanced battle management system. 
This approach will integrate space, air, and ground based sensors on 
manned and unmanned platforms and satellites to meet more combatant 
commander requirements in both contested and non-contested 
environments.
    Air Superiority.--Central to lethality is our ability to gain and 
maintain air superiority when and where needed against potential 
adversaries in 2030 and beyond. Over the next 5 years, we will develop 
an integrated family of systems that can establish and maintain air 
superiority in a contested environment. The fiscal year 2019 budget 
includes $11.0 billion as part of a $63.8 billion effort over the 5-
year plan. This will be a multi-domain effort with a renewed emphasis 
on electronic warfare, networked capabilities, and control of the 
electromagnetic spectrum.
    Light Attack.--Retaining irregular warfare as a core competency at 
a lower cost, and strengthening our alliances are key elements of our 
National Defense Strategy. The Air Force proposes to continue the light 
attack experiment, developing concepts of operation and further 
defining requirements in preparation for fielding a force of U.S. light 
attack aircraft during this 5-year plan. We are focusing on rapid 
fielding and rapid procurement strategies that leverage existing 
capabilities with little or no development. Designed to be coalition at 
the core, we will invite and lead allies and partners to train in the 
U.S., buy common equipment for their own affordable light attack 
squadrons, and build those international squadrons on a network that 
shares information.
    Science and Technology.--The Air Force launched a review of our 
science and technology strategy that will be complete later this year. 
This budget increases emphasis on basic and applied research to drive 
long-term innovation and dominance in air and space power.
                           budget priorities
    Improving Warfighting Readiness.--Readiness is first and foremost 
about having enough trained people. We continue to address the aircrew 
shortage through a multi-pronged approach. This budget boosts pipeline 
capacity, expands pilot training and addresses experience shortfalls, 
continues incentive pay and bonuses, improves administrative support at 
the squadron level, and funds flying hours to executable levels. It 
also addresses gaps in space, nuclear, cyber, and intelligence career 
fields, and supports Battlefield Airmen, our air-to-ground integration 
force.
    The budget proposal funds aircraft depot maintenance, parts, 
logistics support, and invests $2.8 billion in operational training 
infrastructure needed for relevant, realistic training for the multi-
domain environment. It fully funds preferred munitions to industry 
capacity. This includes Hellfire missiles, Joint Direct Attack Munition 
bombs, the Small Diameter Bomb, and the Advanced Precision Kill Weapon 
System.
    The Air Force recruits Airmen, but we retain families. To improve 
family support, the budget funds expanded childcare hours, increases 
off-base child care support, and funds more respite care and support 
coordinators for special needs families. We are improving the 
assignment system so families can better plan for future assignments, 
sustaining our morale and resilience programs, and implementing 
initiatives that support unit cohesion in our squadrons.
    The Air Force is also significantly changing the way we collect 
operational tempo metrics. Prior methods underreport how much time 
Airmen are away. By now accounting for temporary duties away from home 
station for training exercises or mission-related requirements in 
addition to deployment time, we more accurately capture the true impact 
of service demands on Airmen, families, and home units.
    Safe, Secure, and Effective Nuclear Deterrent.--Deterrence works if 
our adversaries know that we can hold at risk things they value. We 
must concurrently modernize the entire nuclear triad and the command 
and control systems that enable its effectiveness. The Air Force 
stewards two legs of the triad and operates 75 percent of the Defense 
Department's nuclear command, control, and communication (NC3) 
capabilities.
    Modernizing the air-based leg of the nuclear triad, the budget 
continues development of the replacement air-launched cruise missile, 
which is 25 years past its design life and faces improving adversary 
air defense systems. This weapon will equip the B-52, B-2, and 
forthcoming B-21 bombers to maintain flexible and effective stand-off 
capability that can penetrate and survive the most challenging 
environments.
    This budget continues to update the B-52 bomber fleet and funds 
development of replacement engines. With adequate sustainment and 
modernization, including new engines, the B-52 will remain a key part 
of the bomber enterprise well into the future. Additionally, the budget 
proposal begins to replace our Vietnam-era UH-1N helicopter.
    The budget moves forward modernization of the ground-based leg of 
the nuclear triad. The Ground-Based Strategic Deterrent program will 
replace the retiring Minuteman III, which has remained viable four 
decades past its design life through a series of costly service life 
extensions, but cannot be extended further beyond 2030.
    Today's nuclear command, control, and communications system was 
last comprehensively updated almost three decades ago. The budget 
targets investments to modernize the integrated land, air, and space-
based systems to ensure secure, survivable connectivity with the 
President and national command leadership.
    Cost-Effective Modernization.--Underfunded in modernization for 
over a decade, the Air Force must manage a bow wave in modernization 
over the next 10 years.
    The budget proposes to upgrade F-16 and F-15 C/D aircraft to retain 
affordable capacity. We propose to buy 48 F-35A aircraft in fiscal year 
2019 and 258 F-35A aircraft over the next 5 years. The F-35A fighter 
brings unparalleled global precision attack capability. The Air Force 
will integrate the F-35 with fourth-generation aircraft as well as 
space and unmanned aircraft, to maintain air superiority in highly 
contested environments.
    Tanker recapitalization remains a top acquisition priority. The 
multi-role KC-46 is capable of refueling joint and coalition aircraft 
with both boom and drogue in the same sortie, and augments the airlift 
fleet with improved cargo, passenger, and aeromedical evacuation 
capabilities. This budget proposes to buy 15 more KC-46 tankers in 
fiscal year 2019.
    Our budget proposal continues to develop the B-21 bomber as a key 
component to the joint portfolio of conventional and nuclear deep-
strike capabilities. The B-21 will be able to deliver both gravity 
bombs and the Long Range Stand Off missile, ensuring options for our 
Nation's leaders to hold targets at risk around the world.
    Moving Faster To Defendable Space.--The fiscal year 2019 budget 
accelerates our efforts to deter, defend, and prevail against anyone 
who seeks to deny our ability to freely operate in space. The budget 
recognizes that adversaries are developing the ability to deny our free 
use of space and includes capabilities to confront that threat. The 
development of these capabilities will continue over the future years 
defense plan and beyond.
    Foregoing the continued buy of today's Space Based Infrared System 
satellites 7 and 8, the Air Force will develop the next-generation 
Overhead Persistent Infrared system. This system will detect and report 
on current, emerging, and anticipated threats, and will be designed for 
survivability.
    The budget adds resilience features and user protection to the 
Advanced Extremely High Frequency and Wideband Global Satellite 
Communications systems, and continues to fund development of next-
generation protected satellite communications services for both 
strategic and operational military users. We continue to explore more 
affordable and innovative ways to acquire satellite communications 
services with investment in both commercial industry and international 
partner capabilities.
    The budget proposal increases funding for anti-jam, anti-spoof, and 
anti-tamper military GPS development and integration into multiple 
joint platforms, and continues to grow Space Situational Awareness and 
Space Control capabilities to enhance our ability to identify, 
characterize, and attribute threatening actions. The budget also funds 
a Weather Satellite Follow-on program using rapid acquisition 
authorities.
    Building upon the foundational architecture for space warfighting, 
we will deliver highly responsive capabilities to connect tactical and 
operational systems to strategic-level decision makers. The recent 
stand-up of the National Space Defense Center supports this mission. 
The budget also funds the Standard Space Trainer that provides 
realistic, live, virtual, constructive training to prepare our Space 
Mission Force Airmen to prevail in a contested space domain.
    Networked Battle Management.--Integrating capabilities that span 
all domains of warfare will be required for success in future combat. 
With the other Services, we are shifting from a model of 
interdependence to one of integration, which includes better integrated 
communications systems, development of tailorable units, and policies 
in key areas that enable adaptability and innovation. Concurrently, we 
will advance our command and control systems to reflect the changing 
character of warfare.
    The Air Force capability that delivers persistent battle management 
command and control and ground moving target indications to joint 
warfighters is in high global demand that far exceeds supply. We 
currently conduct battlefield command and control from JSTARS, AWACS, 
Combined Air Operations Centers, Tactical Operations Centers, and 
mobile Control and Reporting Centers, and monitor many targets on the 
ground from JSTARS, Global Hawk, and other unmanned aerial systems. We 
had planned to recapitalize our aging fleet of E-8C JSTARS on a newer 
aircraft, however, we believe that system will not be viable in future 
contested environments and the recapitalization plan brought no 
additional capability or capacity to meet future demands despite over 
$15 billion in total lifecycle costs. In developing an alternative 
approach that will meet more warfighter needs, we propose to keep the 
current E-8C JSTARS operational through mid-2020s and replace the 
recapitalization program as we transition to an advanced battle 
management system for the future. This approach, as directed in the 
National Defense Strategy, will network sensors from space, air, land, 
and sea, and fuse information to create a more comprehensive picture to 
support the joint fight, even in a contested environment.
    Strengthening Alliances.--The National Defense Strategy emphasizes 
the importance of alliances and partnerships. The fiscal year 2019 
budget reinforces the Air Force commitment to our allies and 
international partners through programs such as the European Deterrence 
Initiative and Indo-Pacific security initiatives.
                        reforming the department
    While this budget proposes additional resources for the Air Force, 
we have to gain full value from every taxpayer dollar we spend. We will 
drive innovation, reinforce budget discipline and affordability, and 
deliver performance with the funds entrusted to us.
    Zero-Based Review.--For the first time in more than two decades, we 
are conducting a zero- based review of all Air Force programs, budget 
accounts, and manpower authorizations to prepare for fiscal year 2020 
and the future years defense plan. We will examine the relevance of 
every requirement and program to align with the new defense strategy. 
Everything we do is ``on the table'' during this review.
    Headquarters Air Force Staff Review.--Simultaneously, we are 
reviewing the structure and manning of the Headquarters Air Force 
staff. We are the smallest and most integrated of the service staffs 
and intend to stay that way. We will ensure each position is used 
efficiently and effectively to support the warfighter.
    Acquisition.--Enabled by the fiscal year 2016 and fiscal year 2017 
National Defense Authorization Acts, we are streamlining Air Force 
acquisition. We have milestone decision authority for more programs and 
we are pushing authority to run programs down to lower levels and using 
new techniques to innovate, including rapid prototyping and 
experimentation. We appreciate Congress' continued support of the 
Acquisition Workforce Development fund and expedited hiring authorities 
to attract, recruit, hire, develop, and retain a high-quality 
workforce.
    Streamlining.--We are systematically reviewing, reducing, and 
clarifying onerous internal instructions, additional duties, and 
computer-based training. There are over 1,300 Air Force instructions 
that levy 85,000 requirements on our wings and squadrons. Every one of 
them will be reviewed, rescinded, or rewritten over a 24 month period. 
We will significantly reduce the number of Air Force publications and 
ensure the remaining ones are concise, current, and relevant. We have 
already rescinded over 100 Air Force Instructions. While this review 
reduces stifling bureaucracy and associated cost, the more important 
impact is on our ability to fight. This supports the culture of 
centralized intent and decentralized execution we need for competent 
and entrusted Airmen to make decisions in future highly contested 
environments, where we cannot expect continuous centralized control.
    Air Force Warfighting Integration Capability (AFWIC).--The Air 
Force is implementing changes to program development that will better 
integrate the budget across the force and allow for more rapid change 
to meet emerging threats. This will improve force design analysis to 
support national defense priorities and improve our ability to engage 
in multi-domain operations.
    Revitalizing Squadrons.--Squadrons are the warfighting core of our 
Air Force. We organize, train, and equip to deploy from the squadron 
up. By revitalizing our squadrons, we are reinforcing cohesive, ready, 
and agile fighting forces to defend our Nation's interests in the 
complex security environment. We depend on exceptional leaders to lead 
the world's most powerful Air Force and joint teams. We will develop 
future leaders, address cultural shifts to embrace 21st century talent 
management, and unlock the true potential of our Airmen.

                     HYPERSONIC WEAPON DEVELOPMENT

    Senator Shelby. General, I'll direct the first question to 
you. We understand that it's difficult to talk about the 
subject I'm getting into, hypersonic weapons, in this setting, 
which you can a little maybe. But since press has reported on 
the development of hypersonic weapons by China and Russia, 
could you describe as much as you could here our efforts to 
develop and prototype these weapons and how important it is?
    General Goldfein. Yes, sir, and I'll tell you that--and 
I'll begin with a couple of the programs that we're looking at 
and then perhaps turn it over to Secretary Wilson on what the 
Department is doing overall because it's broader than an Air 
Force effort. This is across the Department of Defense. 
Secretary Mattis has made it a priority.
    Within the Air Force, what you will see is a significant 
investment in hypersonic technology, two particular programs 
that we're looking at that can advance. And I'm proud to say 
that in both of these programs we are working in close 
partnership with the Navy and the Army to look for smart 
commonality as we go forward that not only brings the best 
technology to bear, but also saves costs in the meantime.
    Secretary Wilson. Mr. Chairman, in this 5-year defense 
plan, there are $524 million that are devoted to hypersonics. 
We just signed an agreement with Lockheed Martin Corporation 
for a prototyping effort. It's an accelerated procurement, and 
using the authorities that you have given us to try to go 
faster, but it's also a joint work with the Army and the Navy. 
We're going to--we decided to--we all got together and said, 
``Let's use the best technology that we have.'' It happens to 
be an Army-tested warhead that they had intended for the Navy. 
The Navy would have to take a few years to scope down its 
diameter, but we don't have to. So we're going to put an Army 
front end on an Air Force booster and test it off an Air Force 
aircraft and develop an accelerated program using the 
prototyping authorities that you've given us.

                   IMPORTANCE OF HYPERSONIC PROGRAMS

    Senator Shelby. How important is this program to us in the 
future?
    Secretary Wilson. Senator, this is a very important 
capability, to be able to threaten targets from a long way away 
at very high speed.

                    MAINTAINING NECESSARY MUNITIONS

    Senator Shelby. Secretary Wilson----
    I've got this on now. Thank you, Senator Durbin.
    The Air Force continues to expend large numbers of 
munitions in support of operations around the globe. Does the 
2019 request provide adequate inventory levels of your most 
important munitions? Because you've got to have the munitions, 
haven't you?
    Secretary Wilson. Yes, sir. Sir, one of the things that was 
clear to me when I took this job a year ago was that one of the 
ways they had managed a declining budget was to let the stocks 
of munitions go down. This budget increases munitions purchases 
to about 54,000 items next year, and is purchasing what we call 
preferred munitions at the maximum industrial capacity, so 100 
percent of industrial capacity, to turn the corner.
    We are currently working in the Defense Department, DoD-
wide, on our next budget plan to look at, ``How do we 
completely recover? What are requirements for munitions?'' so 
that we have what we need to support the National Defense 
Strategy.
    Senator Shelby. Madam Secretary, you know a lot about this. 
Congress has consistently supported funding to rapidly 
transition from our current dependence on the Russian-made RD-
180 rocket engine for national security space launches while 
maintaining assured access to space as a matter of U.S. policy.
    Currently, is the Air Force on track to successfully 
transition off the RD-180 rocket engine by the end of 2022?
    Secretary Wilson. Yes, sir, we are.
    Senator Shelby. So you feel good about that.
    Secretary Wilson. Yes, sir, I do.
    Senator Shelby. Thank you.

              CHALLENGES IN RETAINING DEVELOPING RECRUITS

    My last question has to do with personnel. The U.S. Air 
Force consistently recruits and trains some of the best and 
brightest people in our country, and I know you have a 
particular interest in this aspect of your job given your 
extensive background in education. Madam Secretary, what are 
some of your biggest challenges in retaining and developing the 
men and women that enter the Air Force, and what are you doing 
to develop space operators and to address the current shortage 
of pilots?
    Secretary Wilson. Sir, I'll take the first part of that on 
space operators, and maybe General Goldfein can handle with 
respect to our aircrew.
    For space, we have about 4,000 people in our space 
operations career field. We have some additional folks who are 
part of acquisition and engineering. About a month ago or so or 
within the last month, we directed a complete review being led 
by the Commander of Air Force Space Command, but also involving 
the National Reconnaissance Office, our personnel shop, and so 
forth, to look at the career progression for space operators so 
that we have a healthy career progression for anyone in that 
realm, because it's a fairly small career field, and you want 
to make sure that you really can come into space operations and 
have opportunities all along the way for professional 
development and develop into a senior officer or a senior NCO 
(Non-Commissioned Officer). That work should be done in 60 
days, and they will come to us with recommendations for any 
changes that need to be made on how we manage the Force.
    Senator Shelby. General, do you have a comment?
    General Goldfein. Yes, sir. So, first, we acknowledge that 
this is a national level challenge, and the problem statement, 
as we have analyzed it, is that the Nation today doesn't 
produce enough pilots to adequately service commercial business 
and military aviation. And a variety of factors are causing 
airlines now to require 4,500 pilots a year for the next 10 
years.
    So we're working with industry and we're working with 
Congress on some of the national-level issues and incentives to 
produce more pilots for the Nation. Now, within--what we're 
doing in the United States Air Force, it's a combination really 
of production and retention. How do we produce the number we 
need over time, park that throttle, and continue to produce the 
numbers we need with expected attrition? Because as long as the 
airlines are going to continue to hire, we're going to have 
folks who are going to continue to depart. But then also, how 
do we retain that talent within the Air Force?
    In 2017, we took a number of actions. We increased the 
number of pilots that were produced by about 70. We started 
solving the maintenance manpower that I mentioned earlier. We 
looked very heavily at downrange deployments and really cut 
those down to really refine what we're using them for. And then 
with Congress' help, we changed the aviation bonus for the 
first time in years. In 2018, we added even more pilots, and we 
continued that recovery.
    We have about 69 initiatives right now that we're working 
with the Force that are retention initiatives that are looking 
at talent management. How do we manage this talent? How do we 
work with them individually to be able to incentivize their 
reason for staying, which at the end of the day is about 
quality of service?
    Senator Shelby. If you don't do that, you're going to have 
a brain drain, aren't you?
    General Goldfein. Yes, sir. That's why we're--there's no 
idea off the table.
    Senator Shelby. Thank you.
    Senator Durbin.
    Senator Durbin. I want to stick with that question.
    Thank you both for being here and for meeting with me in my 
office ahead of time.

                            PILOT SHORTFALLS

    Let's stick with the question of the pilots. I understand 
the Air Force pilot shortfall has climbed from 1,500 to 2,000 
in the last year. Is that correct?
    [No audible response.]
    Senator Durbin. And you have spoken about the things that 
we are doing for retention and training production of new 
pilots. The authorization bill allows a $35,000 annual bonus to 
attract pilots. Is it enough?
    General Goldfein. It is for now. I will tell you, sir that 
we will likely come back. We are doing our analysis right now 
because, you know, we just put that into place, and we're 
looking at the analysis right now. And it's as much not only 
how many have taken it, but talking to individual pilots and 
seeing what the incentive plan needs to look like. So we may be 
coming back to you for a change of that, but not for this 
particular budget year.
    Senator Durbin. How about work-life balance? What are you 
doing in that category when it comes to pilot shortfall?
    General Goldfein. Yes, sir, a number of things. First, we 
have already reduced the number of downrange deployments by 
over 140 positions at the headquarters at Al Udeid. We're 
looking at every one of the requirements that we--where we 
place pilots to make sure that a pilot is required. We're 
looking at every one of our exercises, not only within the Air 
Force, but jointly to make sure that those exercises are--the 
return on investment is worth it because much of the balancing 
of--and this is not only pilots, this is aircrew, this is 
maintainers, this is across the smaller Air Force that's 
engaged globally, this is about the number of--you know, the 
number of days when those folks are actually home with their 
family and can balance their home life with their work life, 
and so we've got a number of incentives that we're looking at 
in that regard.

                    ``HUMAN WEAPON SYSTEM'' FUNDING

    Senator Durbin. I also--I've got to give credit to whoever 
came up with the term, decided to describe pilots a ``human 
weapon systems.'' There's an allocation of $13 million for 
optimizing the human weapon system, and it includes a 
contractor, a physical therapist, or athletic trainer for every 
30 fighter aircrew to provide preventive and rehabilitative 
musculoskeletal care for intense neck and spinal strains. Would 
you explain that?
    General Goldfein. Yes, sir.
    So maybe I'll start, ma'am, and if you want to jump in. You 
know, so we always have a joke that--you know, I grew up flying 
F-16s, right? So you sit 30 degrees back, you pull nine times 
your body weight, nine Gs, and then you want to know if anybody 
is behind you. So while you're pulling nine Gs, you are turning 
to look back behind you. So if you can imagine physically what 
that does to the body over time.
    Senator Durbin. I can't, but I trust your judgment.
    General Goldfein. So we always joke that says if you ever 
want to know if a guy is an F-16 driver, it's easy, just call 
his name, and if he turns like this--right--you know you've got 
the right guy.
    [Laughter.]
    General Goldfein. So what we're doing is looking at, what 
is the physiology? And one of the areas that we're really 
focused in is, what is the physiology for both men and women, 
and do we have this right? Now that women are in every--you 
know, in every combat position that we have in the Air Force, 
we have women serving, do we have it right for the entire 
Force? So we're doing a lot of work on this, and we appreciate 
the appropriations to allow us to do that.
    Secretary Wilson. Senator, I would just add I was down with 
the Special Operations Forces at Hurlburt Field and Eglin last 
week, and this idea of embedding physical trainers comes from 
our Special Operations Forces, where it's been very successful. 
And Special Ops has a lot of physical strain in those fields, 
but they're also very reluctant to go to the doc because if 
they go to the doc, they're afraid they'll be pulled off the 
team.
    And I was talking to one special operator, and he said that 
as a young person in Special Ops, he always had lower back 
problems, but he never would go to the doc about it, you just 
grin and bear it until you just can't stand it anymore. He--
they now have a physical trainer and basically kind of an 
athletic coach who works out with them, and there's an intense 
physical workout profile for these folks. And he taught him how 
to work out better so that he strengthened the muscles in his 
back. He has no problems anymore, but he never would have gone 
to the doc. And it was just one vignette. But we think this 
treating our high-performing people, like high-performing 
athletes, keeps them longer and means less strain and wear and 
tear.

                     CHALLENGE REGARDING PERSONNEL

    Senator Durbin. It makes sense. After pilots, what will be 
the next critical personnel category where you're facing 
challenges?
    Secretary Wilson. Senator, we have a couple of others. One 
is a group we call battlefield Airmen, so it's joint--our 
tactical--joint tactical operations officers, our PJs and so 
forth.
    Senator Durbin. What's a PJ?
    Secretary Wilson. Pararescue jumpers. They are--think 
combat trauma and fighting your way in to get them. So they go 
in to recover downed pilots. They're some of our most highly 
decorated Airmen. It is hard to recruit in that field, and we 
stood up this year a special recruiting element that 
specifically focuses on those special operators. The others, of 
course, things like cyber, are not so much hard to recruit, but 
certainly hard to retain because their skills are in such high 
demand.

                         MONETARY COMPENSATION

    Senator Durbin. Do you foresee the need for bonuses or 
incentives to attract and keep those specialties?
    Secretary Wilson. Senator, not necessarily at this point. 
Overall, we're meeting our recruiting goals, and our end-
strength goals there, but if we do need those authorities, we 
will certainly come to you. The one thing we did do this year 
was start a direct commissioning program for cyber officers 
where they come in, given 3 years of credit for service.
    Senator Durbin. We would like to work with you on that. I 
think you're identifying specialties that are needed in many 
different areas, and as with pilots, you're in competition with 
the private sector.
    Secretary Wilson. Yes, sir.
    Senator Durbin. And compensation levels and treatment and 
lifestyle levels have a lot to do, I'm sure, with the decisions 
that are being made.
    Mr. Chairman, I want to apologize to the witnesses as well 
as the rest of the committee.
    But we have a new chairman of the Senate Appropriations 
Committee, and he has really put us on a tough schedule. Would 
you believe that at 10:00 we have three different 
Appropriations subcommittees that are having hearings at this 
very time, while the Senate Judiciary Committee has a markup? 
And because of this new chairman and the driving force he's 
become in the United States Senate, I may have to leave a 
little early. But thank you for your testimony.
    Senator Shelby. Thank you, Senator Durbin.
    Senator Collins.
    Senator Collins. Thank you very much, Mr. Chairman. And I 
would second the comments made by our ranking member.
    Secretary Wilson, let me begin by congratulating you for 
completing your first year as our Secretary of the Air Force. 
You've done a remarkable job, and I wish you well as you 
continue your service to our country.
    Secretary Wilson. Thank you.

                   UPDATE ON CHINESE/RUSSIAN AIRCRAFT

    Senator Collins. To the extent that it is possible in this 
open session, could you or the general provide the committee, 
the subcommittee, with an update on where we believe that 
Russia and China are with their fifth-generation aircraft 
production? You mentioned great power competition has reemerged 
as a major challenge to our national security. So my question 
would be, where are Russia and China on their fifth-generation 
aircraft production? And second, how does the F-35 fifth-
generation capabilities contributing to ensuring U.S. air 
dominance?
    General Goldfein. Thank you, ma'am. We're watching, as you 
might imagine, Russian and Chinese production very closely, and 
so we are seeing them moving into the fifth--what we call fifth 
generation, which we define as a combination really of stealth 
technology, but also equally important is the ability to fuse 
information from sensors that are not only on the aircraft, but 
from a variety of domains and other capabilities. And that will 
be important when I talk about the F-35 and what the F-35 
brings.
    So in terms of Russia and China's capabilities today, we 
enjoy an advantage, but we're watching closely how they're 
investing and taking away that advantage. And so one of the 
things you'll see in this budget is that we're putting 
investment towards the research and development now for 
actually what comes after the F-35 to ensure that we maintain 
that advantage going forward into the future. How do we keep 
the F-35 and the fifth-generation fusion capability more viable 
longer? And how do we ensure that we always maintain that 
advantage? Because we really--you know, we go back to that day 
when Iraq decided to bury their aircraft in the sand versus 
face air power, we want each nation to have that same calculus.
    The F-35 has brought game-changing information fusion to 
the battlespace that we have not enjoyed before. And just to 
put it in perspective for you, so I went out to a Red Flag and 
I was watching actually a young Marine in his mission commander 
check ride in the F-35B in its debut, and we put it up against 
the worst threat array that we could find both on the ground 
and in the air. Before he climbed up into the airplane as it 
was getting powered up, there was already being information 
fused into that cockpit and onto his displays on what was going 
on in the cyber domain because the cyber campaign was a part of 
his overall mission that he had built. Before he got to the 
tanker, he was getting information fused into his cockpit on 
what was going on in the space domain because we had space 
operations.
    I will tell you as a guy who flew fourth generation, there 
was no way I ever had that kind of a display. And what he was 
able to do with that information was become the quarterback of 
the entire team. And he was calling audibles against the threat 
based on what he was being fed in the cockpit, and that fusion 
is an absolute game-changer. And I will just highlight that I 
talked this week to the Israeli Air Chief, and the F-35 has 
become an operational game-changer, not only for us, but for 
our allies and partners.
    Senator Collins. Thank you. I think that last point is so 
important, that it just--that the partnership we have with 
other countries--Israel, the U.K., South Korea, and others--is 
really important as we continue to support production of the F-
35.
    Secretary Wilson, when we were in our office, but I'm going 
to bring it up again here, too, I mentioned that the Air 
Refueling Wing in Bangor, Maine, which is known as the 
``Maniacs,'' and you will find the Maniac stickers in the most 
amazing places around the world, has long been a workhorse unit 
for the Air Force, supporting more than 1,000 transient 
aircraft annually, and deploying personnel at very high rates. 
In recent years, the Wing has processed twice as many gallons 
of fuel as the average Air National Guard Refueling Wing, which 
illustrates the remarkable workload and efficiency of this 
Wing, as well as its strategic location.

                            WING CHALLENGES

    One of the persistent challenges for the Wing is 
maintaining this high-op tempo has been the absence of a flight 
simulator because this means that members of the Wing have to 
travel out of state for simulator training, and that further 
strains available operational and training time. Would you 
commit to taking a look at this issue to see whether it might 
be possible to get a simulator for the Wing given its enormous 
contributions to the Air Force?
    Secretary Wilson. Senator, we will take a look at it. There 
are five simulators for the KC-135 that have become available 
because of the consolidation of the KC-135s in anticipation of 
the KC-46s coming into the inventory, at least we're planning 
for that. Of those five, we've already figured out where three 
of them are going. The commander of Air Mobility Command is 
looking at the other two locations for where the remaining two 
simulators should go, and it will be entirely based on what he 
calls a business case analysis.
    So where do we put it? Because somebody is going to have to 
travel. Where do you put it to minimize the travel time and 
travel costs for the aircrew that are going to have to use 
them? But we've got two more to do, and he will make that 
decision based on the best interest of the Force as a whole.
    Senator Collins. Thank you.
    Thank you, Mr. Chair.
    Senator Shelby. Senator Leahy.
    Senator Leahy. Thank you, Mr. Chairman. I want to--you 
know, I am glad to see the--and I know Senator Durbin is, too--
see the Senate Appropriations Committee going back to the old 
way of actually getting things scheduled and done.
    And Secretary Wilson and General Goldfein, I'm glad to see 
you both again.
    We don't have ``Maniacs,'' but I'll talk about the Green 
Mountain Boys. You know, Madam Secretary, we are proud, as I've 
told you many times, of our Air National Guard. They do make a 
lot of sacrifices to serve our Nation. It's one of the finest 
units in the total Air Force. And after an extensive and 
competitive review, they were--the Air Force selected the 
Vermont Air Guard to be the first Guard unit to operate the F-
35A, and they'll operate out of Burlington, Vermont.

                 QUESTIONS REGARDING VERMONT AIR GUARD

    And one thing I've always been proud of from the time I was 
a college student there is watching how the Guard has worked 
with the community to integrate what they do, and they'll 
continue to do it. I am concerned that a group has circulated 
some misinformation in Vermont, so let me ask a couple 
questions just to clarify the public record. Is it not correct 
that the Air Force selected the Vermont Air National Guard for 
basing the first F-35As after the Air Forces' own extensive 
basing evaluation process?
    Secretary Wilson. Sir, that's correct. It's the third unit 
to get the F-35 and the first National Guard Unit after a 
national look and a narrowing down of appropriate bases for 
them.
    Senator Leahy. Thank you. And the Vermont Air Guard 
currently flies F-16s. General, I've flown in a couple of the 
rare two-seaters of the F-16s. I know exactly what you're 
saying about trying to turn around. It's known for its 
excellent maintenance and operation records, but they're 
nearing the end of their service life. And some have claimed 
that, well, they go--there will be another mission for the 
Vermont Air Guard other than F-35 basing. That's not a fact, is 
it?
    Secretary Wilson. No, sir, it's not. In fact, the United 
States Air Force has gone--since 1991, we've gone from 134 
fighter squadrons down to only 56. And as Senator Udall knows 
all too well, there are now States that do not have flying 
missions. If there is--if the F-35s don't go to Vermont, the F-
16s would eventually age out, and it's highly likely that 
Vermont would no longer have a flying mission for its Guard.
    Senator Leahy. All right. Thank you, Madam Secretary. And I 
want you to know how proud I am of both the Air and Army Guard 
in Vermont. They've always responded.

                           PRODUCTIVELY FAIL

    I want to ask you something, and we discussed about this 
yesterday, and I was intrigued by your answer. In your recent 
Air Warfare Symposium speech, you said it's time to take risks, 
it is time to productively fail. I found that intriguing. Would 
you speak to that a little bit?
    Secretary Wilson. Senator, when I say ``productively 
fail,'' I used to be the president of a science and engineering 
university, and I found that our freshmen students, you know, A 
and B students, out of high school, really hard working, 
they're always afraid to fail. And as engineers, they need to 
learn how to productively fail. And so I would give them 
examples.
    And you know, for example, you know why WD-40 is called WD-
40? Because the first 39 versions didn't work. And so it's 
about finding what doesn't work sometimes. You think about WD-
40, four out of every five homes in America have a can of WD-
40, and it was initially developed as a coating for the Atlas 
missile to prevent corrosion. But it took a guy named Norm 
Larsen 40 tries to get the right formula to make it work.
    And so it's about learning as you prototype an experiment 
and not thinking of a test failure as a failure; it's just one 
more step where you're learning to figure out the path towards 
success. And so that's what I mean by ``productive failure.''
    Senator Leahy. I was intrigued by it. I went back and 
reread last night your speech, and I think we could put that in 
a whole lot of areas, but, obviously, you're being cutting edge 
in the Air Force, you're going to have things that don't work 
the first time, and you've got to be willing to go ahead with 
it.

                          PRODUCTION OF HH-60W

    And I'm glad to see you include funding in the fiscal year 
2019 budget request for initial production of the HH-60W, the 
combat rescue helicopter, something I supported early on. Can 
you explain to the committee the need for this, either you or 
General Goldfein, whoever you'd like, and how that might be 
used in combat missions?
    General Goldfein. Yes, sir. As an Air Force, we actually 
own the mission to be able to fight our way into a hot landing 
zone, fight our way in against an enemy, and pick up a wounded 
soldier, so an Airman, Marine, at the point of injury. And so 
the combat rescue helicopter allows us to do that mission. And 
not only is it for us, but it's also for our allies and 
partners because they know, and we've demonstrated this to them 
before, that if they go in and they find themselves on the 
ground, you know, out of an airplane that they bailed out of, 
that we're not going to stop at anything to come get them. And 
I have personal experience with that, having been rescued 
myself back in 1999, and I'll tell you, one of the best sights 
you'll ever see when you're behind enemy lines is that combat 
rescue helicopter on its way to pick you up.
    Senator Leahy. The head of my Vermont office was in the 
Army during Vietnam, and he tells about when they crashed 
behind enemy lines and were surrounded in the jungles by the 
enemy, how good it felt when that rescue came in.
    So, Mr. Chairman, thank you very much.
    Madam Secretary, thank you. And again, I was intrigued by 
that speech, and I hope a lot of people read it.
    And General, I appreciate your comments, too.
    Senator Shelby. Thank you, Senator Leahy.
    Senator Hoeven.
    Senator Hoeven. Thank you, Mr. Chairman.
    And Secretary and General, thanks to both of you for being 
here and for the tremendous job that you do. We appreciate it 
very much.

                  UPL JUSTIFICATION FOR GBSD AND LRSO

    Secretary Wilson, you submitted a short list of so-called 
unfunded requirements, which are programs where you would spend 
money if it were available beyond the basic budget request for 
fiscal year 2019. That unfunded requirement list included a 
request of an additional $69 million for the Ground-Based 
Strategic Deterrent program, which will replace the Minuteman 
III ballistic missile, and an additional $85 million for the 
LRSO (Long Range Stand Off), which will replace the existing 
nuclear cruise missile ALCM (Air-Launched Cruise Missile). 
These are important parts of the nuclear modernization program. 
So can you address the status of these programs and why they 
could use additional funds, please?
    Secretary Wilson. Senator, as you know, we are required to 
put in a list of unfunded requirements, which the Chief 
develops. Our list this year is far smaller than it has been in 
the past because the increased commitment in the top line of 
the budget allows us to fund more of the things that we need to 
fund.
    What our unfunded requirements list did this year was 
accelerate the things that are already in our 5-year plan. If 
we had more funds, we would do this more quickly.
    With respect to those two programs that you mentioned, the 
Ground-Based Strategic Deterrent is on schedule; in fact, it's 
actually a little ahead of schedule, and we may be coming to 
you with a reprogramming request this year just to continue on 
and keep ahead of schedule. The Long-Range Stand-Off missile is 
also on schedule. But we're--in both of those programs, we're 
very early in the program, but they are going well so far.
    Senator Hoeven. General, did you have any thoughts on that 
as well?
    General Goldfein. Sir, the exact same point really, that, 
first of all, they're fully funded, and second point, if there 
were additional funds, we would move aspects of those to the 
left because it is a critical capability, and we need to do it 
as quickly as we can.

                        RQ-4 GLOBAL HAWK DEMAND

    Senator Hoeven. General, if you would talk about the demand 
for the RQ-4 Global Hawk. And also I understand you're--the Air 
Force is rethinking the way it integrates data from a variety 
of platforms to get a clear picture of the battlefield. So what 
role do you see Global Hawk playing in the coming years? And do 
you expect--still expect it to be in high demand for commanders 
in various areas of operation around the world?
    General Goldfein. Yes, sir. Global Hawk is one of our most 
in-demand assets for combatant commanders. And so today, you 
know, we've invested a significant amount, and an ISR 
(Intelligence, Surveillance, and Reconnaissance) enterprise is 
rather exquisite and provides situational awareness for not 
only military, but for civilian leadership that is almost 
unprecedented. And one of the central players in that 
enterprise is Global Hawk because we can fly it for long 
periods of time, it has exquisite sensors and capabilities. So 
I see the demand signal for that capability going up and up in 
the future.
    Senator Hoeven. Secretary.

                  IMPROVEMENTS TO ACQUISITION PROCESS

    Secretary Wilson. Sir, nothing in addition to that.
    Senator Hoeven. Okay. And then also, Secretary, can you 
provide the committee with an update on what the Air Force has 
been able to do since acquisition authorities have been 
delegated from the Office of the Secretary of Defense to the 
military services, and whether you see a need for any 
additional authorities to improve the acquisition process?
    Secretary Wilson. Senator, in each of the last three 
defense authorization acts, there were acquisition reforms. And 
the Congress moved a lot of acquisition authorities back from--
from OSD (Office of the Secretary of Defense) down to the 
services. We are now managing those programs, and we have 
pushed all of the authorities down to program managers so they 
spend more time managing their programs and less time managing 
the Pentagon.
    We are also taking advantage of new authorities that you've 
given us for prototyping and experimentation. Over the last 
couple of months, the Air Force has accelerated eight large 
programs using these new authorities which you've given us, 
including the next-generation missile warning satellites, new 
engines for the B-52, which we will use a prototyping contract 
for, and hypersonic weapons.
    We're working the reprogramming actions now to determine 
how much of that acceleration we can actually do financially, 
and we'll work with you on that in our next budget submission. 
But if we're able to fully fund just those eight programs, 
we're going to achieve over 25 years of total program 
acceleration just in those eight programs alone by using the 
authorities you've given us.
    To do that, it takes more discipline, it takes better 
oversight by the Air Force of those programs. But as a result 
of those programs, the way they're structured, Congress will 
actually get more reporting, not less, as we use prototyping 
and experimentation, and accountability is clearer.
    We're just at the beginning of this. I would ask you to let 
us implement and report back and learn, but I'd particularly 
caution against anything that reverses the course that 
separates back authority and responsibility again or multiplies 
it out among offices or erodes the service autonomy that's 
allowing us to tailor acquisition and perform faster. Let us 
try this because I think we're going to see some great results.
    Senator Hoeven. After all, time is money, right?
    Secretary Wilson. Yes, sir.
    Senator Hoeven. And we appreciate what you're doing with 
it.
    General Goldfein has been to Grand Forks Air Force Base, 
and to the Northern Plains Test Site, and to the Grand Sky 
Technology Park, and he was an all-star. He not only did a 
great job with the men and women of the Grand Forks Air Force 
Base, who are fantastic, but we went over to the Tech Park and 
so forth. He stayed longer and participated and was incredibly 
well appreciated by everybody.

                            PILOT SHORTAGES

    You and I talked about you coming as well. We look forward 
to that very much. I appreciate your willingness to do that, 
not only for the UAS (Unmanned Aircraft Systems), whether it's 
Global Hawk, Predator, Reaper all the other types of unmanned 
aircraft aviation. The tech companies are coming in there, they 
interface with training Customs and Border Protection. But the 
other thing I'm going to wrap up on this--is the pilot 
shortage. Innovative ways to reach out and get after this 
critical, critical pilot shortage, which isn't just the 
military, it's across the board.
    So I would just like to wrap up with each of you touching 
that issue and how you are working to address the very acute 
pilot shortage.
    General Goldfein. Yes, sir. And I can't thank you enough 
for helping us with the initiative, because you correctly 
stated, this is a national challenge. And while we have 
initiatives that we are working on strongly within the military 
for those things we can control, it's the shortage of pilots to 
be able to do commercial business and military aviation that we 
face as a Nation. So incentive programs like you built that 
allow us to build more pilots to get more young people excited 
about getting airborne, that's exactly the right direction, and 
I know we look forward to working with you and this committee 
in the future to put more incentives in place.
    Senator Hoeven. Thank you, General.
    Secretary, anything else?
    Secretary Wilson. Senator, just to echo what General 
Goldfein said, I think that anything that helps relieve the 
pressure on the shortage of pilots, whether it's military, 
Customs and Border Patrol, or civilian, helps all of us.
    Senator Hoeven. General, you used exactly the right word, 
you will see real excitement there coming from all these 
different areas. It really is exciting.
    Thanks so much again to both of you.
    Secretary Wilson. Thank you, sir.
    General Goldfein. Thank you.
    Senator Shelby. Senator Schatz.
    Senator Schatz. Thank you, Mr. Chairman.

                           ENERGY RELIABILITY

    Thank you, Secretary and General, for being here.
    Let me start with a conversation, Secretary Wilson, you and 
I have been conducting ongoing, and that's about energy 
assurance and how the Air Force's requirements are different 
from other--than the service branches. I know that reliable 
access to air--power at Air Force installations is particularly 
important for your missions because you operate from bases in 
the United States to support our warfighters around the world, 
it affects your energy needs. If the civilian grid goes down, 
for example, the Airmen on our bases in Creech or Beale flying 
drones in Afghanistan can't support our counterterrorism 
operations. Can you talk about how energy reliability at our 
installations both forward and especially at home drives the 
Air Force's energy needs and what we're doing about it?
    Secretary Wilson. Senator, for the Air Force particularly, 
we have to expect--and we fight from our bases--and so we have 
to expect that someone would seek to deny us power in order to 
be able to fight the fight. And so energy resilience, whether 
that is backup power, independence of our grid, the turning 
waste into energy, those kinds of things are important for the 
Air Force.
    It's also important to reduce the demand for supplying 
forward bases. You mentioned Afghanistan. If you can turn waste 
to energy onsite, you spend a lot less time bringing fuel into 
those areas and a lot less risk for our Airmen and their 
families.
    Senator Schatz. There are a couple of interesting programs 
happening in each service branch. My concern is whether or not 
the information gathered through those initiatives are being 
shared across service branches. Now, I understand the 
requirements are somewhat different, but really they're not 
totally different. There are electrons flowing, and then there 
are fuel. And so I just want to be reassured that whatever 
you're doing in the Air Force is shared across the whole 
Department of Defense, and likewise, I think the Navy is doing 
some pretty interesting things.
    So can you assure me that you are sharing information or 
that it's--you know, I know that you're talking, but I'd like 
to see something a little more formal so that there's an 
integration of what is learned because this is the science fair 
stuff. These lines in the appropriations bill allow you to do 
what you need to do, and if you learn something, particularly 
in waste energy or in energy assurance on the civilian grid 
side, whatever it may be, I want to make sure that that's 
applicable across the Department of Defense.
    Secretary Wilson. Senator, absolutely. And one of the 
things that the Air Force and the Army did recently is we now 
collocated our offices for energy resilience. So the Army and 
Air Force offices are collocated. Technology transfers, ideas 
on technology transfer best on two feet, and by putting them 
together, we think that that's probably a good way to do it.
    Senator Schatz. Great. Thank you.

                         THREATS IN THE PACIFIC

    General Goldfein, I know the Air Force is working hard to 
stay ahead of the A2AD threat in the Pacific, and this budget 
request is focused on developing the tech to ensure the Air 
Force can continue to deliver information to our warfighters in 
the field regardless of the threat. Can you talk more about the 
threats in the Pacific and how they're evolving and how the 
investments the Air Force are making will address them?
    General Goldfein. Yes, sir. And I'd be happy to also come 
in at a time of your choosing to walk you through a classified 
assessment of that as well. What I can say in the open here is 
that no country on the planet can take a block of wood and put 
it over its country and protect it. The best they can 
accomplish is to put a block of Swiss cheese, and there are 
holes there. And it's our job, as an Air Force, to be able to 
understand where the holes are, exploit them with our 
capability, our technology, and our folks, and be able to go 
and do what we need to do to hold targets at risk.
    And the way I look at air superiority, it's about 
penetrating, persisting, protecting, and punishing. And we've 
got to be able to do that and hold targets at risk for the 
President across the globe, and today's Air Force can do that, 
and our investment ensures that tomorrow's Air Force can as 
well.
    Senator Schatz. Thank you.

                      MAUI SPACE SURVEILLANCE SITE

    Secretary Wilson, I know the Air Force has among its top 
priorities to move forward with defendable space posture, 
especially as our adversaries build weapons to deny the use of 
space. And a key part of this is the space situational 
awareness mission to ensure that we're tracking objects and 
protecting our satellites from debris and potential threats 
from our adversaries. Now, can you talk about how the Maui 
Space Surveillance site plays a role in the Air Force's move 
towards a defendable space posture?
    Secretary Wilson. Senator, one of the--when we talk about 
moving to defendable space, the first thing you need to do is 
to have a good idea of what's going on around you. So space 
situational awareness is what we call that. In the past, when 
it was an uncontested domain, we kind of just kept a catalog of 
what was up there, and we'd check, ``Yeah, it's still in the 
same place it was last week.'' That's not good enough in a 
contested domain, so you have to have near real-time 
understanding of what's out there and what's moving. So some of 
those will be space-based, some of those capabilities will be 
ground-based, like Maui, and all of them need to be integrated 
together for that near real-time picture of everything that's 
happening in space.
    The Air Force tracks about 20,000 or so objects in space 
that are larger than a softball. There are some we're more 
concerned about than others. But this global network, of which 
Maui is one part, is important for the security of our space 
assets.

                 MAUI HIGH PERFORMANCE COMPUTING CENTER

    Senator Schatz. So as I understand it, sort of for a layman 
to understand, you're collecting all these datasets, but 
something has to do the sort of real-time computation to sort 
it all out and make sense of it because you can get too much 
data, and then it's not actionable. So can you talk a little 
bit about the Maui High Performance Computing Center and its 
counterparts across the country and the sort of importance of 
investing in computational power to make sense of all of this?
    Secretary Wilson. Let me give you an example. Over Easter 
weekend, we were tracking the Chinese space station that was 
deorbiting. We were doing that out of Vandenberg, California, 
but we were using these high-performance models to get data off 
of what that satellite, that degrading satellite, was doing, 
and then be able to predict where it was going to hit the 
Earth. So that's why those high-performance computing 
capabilities are important, so we not only track where 
something is, where it's changed on a last revolution around 
the Earth, and then as it degrades, where it's likely to hit. 
And it ended up hitting in the Pacific.
    Senator Schatz. Thank you.
    Senator Shelby. Senator Daines.
    Senator Daines. Chairman Shelby, thank you.
    Secretary Wilson, General Goldfein, thanks for appearing 
here today.
    Secretary Wilson and General Fletcher, thanks for the 
thoughtful discussion yesterday in my office, stepping back and 
looking at global threats.
    Montana is very proud to support some of the Air Force's 
most critical missions. Its location provides an ideal home for 
the 341st Missile Wing with its strategic nuclear assets and 
truly world-class missileers, not to mention the vast Powder 
River Training Complex provides an unparalleled training 
opportunity for the joint force. It's also the proud home of 
nearly 1,000 citizen Airmen of the 120th Airlift Wing, who 
stand ready to transport personnel and equipment anywhere in 
the world whenever needed. These Airmen represent the best 
America has to offer, and we are grateful for their service.
    Last September, in a speech before the NGAUS Annual 
Convention, General Goldfein highlighted the strategic 
advantages and budgetary efficiencies of having our ICBM 
(Intercontinental Ballistic Missiles) assets and long-range 
bombers collocated at Minot Air Force Base in North Dakota. I 
find that argument very compelling and believe these same 
advantages could be attained at Malmstrom Air Force Base in 
Great Falls, Montana.

                              B-21 BOMBER

    Secretary Wilson, much of the B-21 bomber development has 
been shrouded in secrecy, and for good reason, but when can 
Congress expect, as well as the American people, to see a 
strategic basing plan?
    Secretary Wilson. Senator, we have announced publicly that 
bases that have bombers now will have bombers in the future, 
and we are doing an initial look at the three bases where there 
are B-1s and B-2s for the bed-down of the initial B-21s. The 
plan currently is that we have no less than 100 B-21s, and the 
rest of the fleet, up to 175, will be B-52s. So we will divest 
of the B-1s and B-2 aircraft.
    We are currently going through a review to look at the 
National Defense Strategy and the Nuclear Posture Review to 
tell the Air Force, ``All right, to implement this strategy, 
how many aircraft and squadrons do we actually need, including 
bombers, fighters, space assets, across the board?'' When I 
say--I want to be very careful to say it is no less than 100 B-
21s. And this review, which the Chief and I expect to see the 
initial draft of in August, but which we owe to the Hill by 
next March, should tell us whether we will need more Force 
structure than 100 B-21s.

                     B-21 CONSTRUCTION REQUIREMENTS

    Senator Daines. Thank you. We've been looking at the fiscal 
year 2019 budget request. It doesn't yet identify military 
construction requirements for the B-21. And respecting the need 
to safeguard our technologies and our capabilities, isn't it 
about time for the Department to begin planning the practical 
and the logistical aspects with the States that will be 
affected?
    Secretary Wilson. Senator, we announced about 2 weeks ago 
that we're doing the initial survey on Dyess, Whiteman, and 
Ellsworth, which are the current B-2 and B-1 bases. If we were 
to include--if we go beyond that, it costs more to shift from a 
base that is not currently equipped for bombers, and our 
estimate is probably about 450 million per base if they don't 
currently have a bomber mission. This is in addition to the 
investments that need to be made to prepare existing bomber 
bases to receive the B-21, which is why we're starting out with 
the bases that do have bomber missions.
    Senator Daines. I'll pivot over and talk about our UH-1N 
issue, the replacement. I'm greatly concerned about the aging 
Huey fleet. It's like watching ``Good Morning, Vietnam'' when 
you spend time watching those aircraft. They provide security 
to our nuclear missile fields in Montana, and although if the 
replacement program for the aircraft is currently undergoing 
source selection, I understand that it may have stalled to a 
GAO (Government Accountability Office) protest.

                            UH-1 REPLACEMENT

    Secretary Wilson, is the Air Force still on track for a 
2021 delivery of the UH-1 replacement? And what efforts has the 
Department taken to move forward during this protest?
    Secretary Wilson. Senator, there is a protest on the UH-1 
replacement. It was a protest that was lodged before the 
proposals are even in. GAO's review is supposed to be done on 
the 23rd of May. The Air Force is providing all--rapidly 
providing information that GAO is asking for, so it's not 
delayed any further than the 23rd of May. But I would say that 
for some companies, there's a tendency to fund your proposal at 
the same time you're funding your protest development, and we 
need to, in some way, get beyond that so that we're not 
delaying acquisition because we have to build for 6 months of 
protests into every one. We've--97 percent of the time the Air 
Force is found to have conducted these procurements properly, 
but we still have to add time into our schedules because of 
these kinds of protests.

       UPDATE ON GROUND-BASED STRATEGIC DETERRENCE MODERNIZATION

    Senator Daines. Thanks for the thoughtful answer.
    Shifting gears, I want to talk about the modernization of 
the nuclear triad. I was very pleased to see the updated 
Nuclear Posture Review earlier this year, which recognizes the 
strategic importance of a nuclear triad and prioritizes its 
modernization.
    Secretary Wilson, can you provide an update on the 
modernization efforts for the Ground-Based Strategic Deterrence 
program?
    Secretary Wilson. Senator, the Ground-Based Strategic 
Deterrence is moving along, actually in this year it's moving 
along faster than scheduled, which is why we may have a 
reprogramming to continue--to continue the schedule, and try to 
get a little bit ahead of the game, but it's going well.

                    NUCLEAR INFRASTRUCTURE UPGRADES

    Senator Daines. The fiscal year 2019 budget only calls for 
infrastructure upgrades at one of the ICBM wings, while 
contractors at all three stand ready to break ground. Provided 
additional resources, is the Air Force prepared to move forward 
in updating our nuclear infrastructure?
    Secretary Wilson. Senator, we have infrastructure needs 
across the board in the Air Force, and we're quite far behind. 
It's one of the areas where, in the wake of sequester, the Air 
Force reduced its budget significantly. The priorities for 
military construction, the top priority for military 
construction, each year is new missions. And so we try to 
prioritize those each year.
    Chief, do you have anything else on that one?
    General Goldfein. Well, just that also the other areas that 
we prioritize very highly is combatant commander needs, and 
it's primarily in accordance with the National Defense Strategy 
in support of the China, Russia campaigns, the global campaign 
plans. So we look at combatant command requirements, and as the 
Secretary rightfully stated, we look very closely at new 
mission MILCON (Military Construction) as our priorities.
    Senator Daines. Thank you. I'm out of time. Thanks for the 
thoughtful answers.
    Senator Shelby. Senator Tester.
    Senator Tester. Thank you, Mr. Chairman. And I want to 
thank both of you for being here. And I want to thank the 
people that you represent that aren't here today. So thank you 
very much for your commitment to this country. And I want to 
invite you both to Montana to come see Malmstrom and the 120th 
at your convenience. We'll show you some of the best people, 
some of the most committed people that we have. And I'm a 
little biased on that, so it's okay.

                            PILOT BREAKDOWN

    I want to go back to a question that the chairman and the 
ranking member asked, and Senator Hoeven touched on it, it has 
to do with the pilots. Can you give me any sort of breakdown as 
to how many of those 2,000 pilots that are needed are in the 
active military versus Reserve versus Guard?
    General Goldfein. Sir, it's actually a moving target 
relative to total numbers. Right now, if you take a look at 
what we are short, it's approximately 2,000. Most of those are 
in the active.
    Senator Tester. Okay.
    General Goldfein. If I could take that for the record on 
giving you exact numbers on what their breakdown is, because it 
tends to move, but the vast majority are active duty.
    Senator Tester. And if you could give me also the breakdown 
on fixed-wing versus rotary.
    General Goldfein. Absolutely. Absolutely.
    Senator Tester. That would be really good. Thank you.
    And then the other question I had that I think could be 
helpful is that--you know, I just met with some airlines 
yesterday, as a matter of fact, and they talked to me about the 
pilot shortages, as you've talked. And you're right, they're 
going to be looking to the military to fill their needs.

                            ENERGY TRANSFER

    If you guys have recommendations on what further Congress 
can do to help you recruit, boy, that would just be very, very 
important. I know you've got the incentives, but if there are 
other things we can do, it could be helpful, maybe on the 
training side of things, I don't know, but it would be good.
    I want to talk to you, Secretary Wilson, a little bit about 
R&D, it's what Senator Schatz talked about, particularly as it 
comes to energy because I think it could be run across all 
three: Navy, Army, and Air Force. And you talked about tech 
transfer. Is that transfer actually happening at this time? And 
I'm talking about in the areas of energy. You talked about 
forward bases, waste to energy onsite can be a tremendous 
advantage for your operations. I agree. And is--there's no need 
building the ship--building the airplane twice, so to speak. So 
is that transfer actually happening?
    Secretary Wilson. Senator, just to make sure I understand, 
you mean the transfer from Air Force research projects to other 
services or just getting it----
    Senator Tester. Yes, and back to you from those services.
    Secretary Wilson. Senator, I'm going to take that one for 
the record as well. We've got our people working together. Some 
of it has to do with, all right, once you develop a technology, 
do you put it into all bases, or what are the plans base by 
base? So let me take that one and get back to you.
    Senator Tester. That would be good. I mean, the concern, 
and the concern in government generally is that we do things in 
silos and we don't communicate very well. And I'm not saying 
that's the case here, but we should try to break those silos 
down as much as possible.
    I do want to talk about another thing that Senator Daines 
talked about really quick with you, Secretary Wilson, and 
that's the Huey replacement. Do you see that--and General 
Goldfein, you can talk, too, if you'd like--it's on track for 
2020? Do you see any delays further, or do you see that we can 
pretty much count on that?
    Secretary Wilson. Our intention is to move forward very 
quickly after the protest is over to be able to get an aircraft 
and replace the Hueys.

                       MOVING UP HUEY REPLACEMENT

    Senator Tester. So, right. And you know, I think time is 
important here. Is there any possibility it could be moved up 
to 2019?
    Secretary Wilson. Sir, I think that would be very 
difficult.

                        RAMPING UP C-130 FUNDING

    Senator Tester. Okay. Then I want to talk about the apron 
at the Air Guard for the C-130s. And we appreciate those 
aircraft very, very much in Montana. If this can't be funded in 
fiscal year 2019, General, can you assure me that the project 
will be a priority for the fiscal year 2020 MILCON process?
    Secretary Wilson. Senator, I think that ramp is in our 
fiscal year 2023 plan, so we're talking about----
    Senator Tester. 2023?
    Secretary Wilson. 2023. It's the number five priority for 
the Air National Guard in the Unfunded Priorities List, and it 
is in our fiscal year 2023 MILCON plan to replace that ramp, 
it's a cost of about $9 million.
    Senator Tester. So that means it's not going to be done 
until 2023?
    Secretary Wilson. Senator, it is in the fiscal year 2023 
plan, as is.
    Senator Tester. So that's what you said.
    Secretary Wilson. Yes, sir.
    Senator Tester. So is there any way we can make that a 
priority for 2020? Because it is pretty important. We changed 
from a fighter to a cargo wing. I think it fits Montana very, 
very well. It's something that we worked hard with previous 
administrations on, and if there is any way to move that up, 
and if you need my help in doing that, I think it's important.

                         INFRASTRUCTURE FUNDING

    Secretary Wilson. Senator, I understand. I would say that 
the underfunding of infrastructure and maintenance is an issue 
in the Air Force as a whole, and it's one of the ways in the 
wake of sequester and a budget that was much lower, there 
wasn't as much money put into maintaining facilities, and it 
does show.
    Senator Tester. Okay. And so you're trying to catch up now. 
So--and when I heard your testimony earlier, you like this 
budget. I think, General Goldfein, you said this is a budget 
that's--how did you put that--it drives the other way around. 
Are you comfortable with the infrastructure component of this 
budget?
    Secretary Wilson. Senator, we're very far behind in our 
infrastructure, and I think that's a long-term problem. We're 
not going to be able to fix it in a single year. We're going to 
have to dig ourselves out of this hole over a number of years.
    Senator Tester. And do you have a--and I know you do 
because you just said that the apron was for 2023--do you have 
a 5-year plan or a 10-year plan on infrastructure?
    Secretary Wilson. Sir, it's a 5-year plan.
    Senator Tester. 5-year plan? Okay. Good.
    Thank you very much.
    Senator Shelby. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    And Secretary and General, welcome, thank you.
    I want to raise a couple matters that you and I discussed 
yesterday, Secretary Wilson, and again thank you for giving us 
the time that you did. As you know, the folks in the interior 
are anxious to receive the servicemen and women and their 
families that will be coming to Eielson with the bed-down of 
the F-35s. With that is a little bit of stress to the community 
as they prepare and ensure that we do right by these families 
in ensuring that they have appropriate housing and schools and 
everything that comes with making a good, strong community.

             FAIRBANKS NORTH STAR BOROUGH HOUSING CONCERNS

    There has been concern within the Fairbanks North Star 
Borough that while they have identified the need for additional 
housing in close proximity to the base, that there is some 
concern that the Air Force might move forward and ask an on-
base privatized housing partner to build additional units on 
base that would compete for occupants with the units that are 
being looked to, to be constructed for Eielson families.
    I had an opportunity to raise this issue with General Green 
when he came before the MILCON Subcommittee, and his words were 
comforting. But I would ask if you could share with those who 
have been following this very keenly, share any confidence that 
you can provide that the Air Force will not undermine the 
private investment by authorizing the construction of 
additional privatized housing units on the base.
    Secretary Wilson. Senator, we have no plan for doing 
privatized housing at Eielson other than what's already there.
    Senator Murkowski. That will make people move, and I think 
move in an appropriate way, that I think that surety, that 
certainty, will allow for that investment to come, and again, 
the timing line up in a way that we will all be ready.

                            F-35 SUSTAINMENT

    I wanted to ask about the sustainment issues related to the 
F-35s and the recognition that the sustainment costs are 
presently an issue, spare part shortage are listed as one of 
the main issues. Can you give me an update on this matter, 
where whether or not the sustainment issues are in the process 
of being resolved? Are you concerned that it may delay or 
affect in any way the deliveries of the new F-35s? And do you 
anticipate that we might be facing funding shortfalls as a 
result of this, particularly as it might relate to like the 
spare parts supply?
    Secretary Wilson. Senator, let me just echo one of the 
things that General Goldfein said earlier in the hearing, that 
the F-35 is a game-changer for us, and he described the 
exercise----
    Senator Murkowski. I love the description.
    Secretary Wilson. It's the exercise at Nellis, the Red Flag 
exercise. The kill ratio for the F-35 is 20:1, 20:1. It is an 
amazing aircraft because it's not just the aircraft, it's how 
it connects to everything else.
    With respect to cost, the purchase price for the F-35A is 
now, by fiscal year 2019, will be less than $80 million a copy, 
which makes it comparable to a fourth-generation fighter. So 
you get a fifth-generation fighter at a fourth-generation 
fighter price.
    Our budget proposes to buy 48 of them in fiscal year 2019, 
and our focus now is on driving down the costs of maintenance 
and the flying hour costs. There are a number of ways we're 
going after that, and of course, this is a program that's done 
with a joint program office that covers the partner countries 
as well as the Army, Navy, and--rather, the Navy, Marine Corps, 
and the Air Force.
    But the focus on sustainment costs is where we are spending 
a lot of time now as the Air Force because we're the largest 
customer for the aircraft. And as we drive down those costs, 
our objective is to get the cost per flying hour of an F-35 
equal to or better than a fourth-generation fighter. And then 
there's really--there's just really no comparison in the way it 
fights and then in the way we will support it.
    Senator Murkowski. So you sound pretty confident that 
things will stay on track, on schedule.
    Secretary Wilson. On schedule, yes, ma'am, with respect to 
the--we have no concerns about the schedule of the delivery of 
the aircraft as they're coming off the line. We are now 
focusing on the long term and driving down the costs of 
maintaining the aircraft.

                         AIR FORCE RECRUITMENT

    Senator Murkowski. Good. Let me raise the issue of 
recruitment. Senator Tester has addressed this, and others have 
as well. Your statement, the Air Force recruits Airmen, but we 
retain families. I think that that is--it's so appropriate and 
so fitting that we recognize that the investments that we make 
in whether it is child care facilities or expanding the child 
care hours, off-base support, all of these are things that I 
think we look to. And it really does act as a force multiplier, 
if you will, when it comes to maintaining morale on bases. 
Certainly, within the Alaska communities, we've got a great 
deal of pride in how we embrace and support our military 
families.
    You raised an issue with me yesterday that I thought was 
very interesting. So many of our military spouses are needing 
to work or are wanting to work, particularly in Alaska, where 
it's high cost, having that second income is really helping our 
military families, but we don't make it easy for 
transferability of licensure and certifications. And you raised 
that as an issue with me that I thought--when we think about, 
well, what can we do to help you recruit, retain? So can you 
speak to this issue just a moment, please?
    Secretary Wilson. Senator, when we are out listening to 
Airmen as to what matters to them, there are two things that 
kept coming up. And I have breakfast with my colleagues, the 
three service Secretaries get together every 2 weeks for 
breakfast, and we talk about different things, and the same 
issues are coming up with the other services. And so we chose 
to send a joint letter to all of the Governors that highlighted 
two things that we will take into account in future basing 
decisions in addition to mission and environment and personnel 
and all of those things.
    There are two factors that matter a lot. One is the quality 
of the schools. An Airman is four times as likely to have a 
college degree as the community in which the Airman lives. And 
so schools for their children matter a lot, and their children 
move around a lot, so it matters.
    The second is reciprocity of licensure for spouses or 
family members of military members. So if you're a teacher and 
you're assigned in Idaho, and you move up to Alaska, being able 
to go right into the classroom and not have to be recertified 
in Alaska, or a CPA, or a cosmetologist, or a family therapist.
    And I've heard these stories around the Air Force where--in 
fact, I was talking to a Captain when I was at Hanscom Air 
Force Base. His wife was a licensed family therapist. It took 
her 18 months when they moved from Florida to Massachusetts to 
get her license certified in Massachusetts. So universal 
reciprocity of licensure, which is a State issue, would really 
help. And we've decided we're just going to take it into 
account when we do basing decisions because it matters to our 
Airmen.
    Senator Murkowski. Well, I thank you for raising that, and 
I think that each one of us, when we are back home in our 
States, can help assist with this. We should not be putting 
barriers in front of these workforce opportunities, and when 
it's simple licensure issues and reciprocity and the ability to 
transfer, it seems to me that we can do a better job. So I 
thank you for that, and I look forward to working with you.
    Secretary Wilson. Thank you.
    Senator Murkowski. Thank you, Mr. Chairman.
    Senator Shelby. Thank you, Senator Murkowski.
    Senator Udall.
    Senator Udall. Thank you so much, Chairman Shelby.
    And Secretary Wilson, thank you for your service.
    And General, thank you, and it's really good to have you 
here today.
    You have made access to space a priority for the Air Force, 
Secretary Wilson, and this budget request reflects that 
priority. And I'm telling you some things about New Mexico. She 
knows New Mexico very well. But New Mexico continues to lead in 
this field. In the past, the New Mexico delegation fought to 
ensure that the Air Force does not cut the Operationally 
Responsive Space program, the ORS initiative, at Kirtland Air 
Force Base. This program is at the forefront of developing 
small satellite technology for national defense.
    Today, ORS is in the process of becoming the Space Rapid 
Capabilities Office. There is now potential for Space RCO in 
Albuquerque to lead the Nation in space innovation. To do that, 
I believe we must tap into the creativity and risk-taking 
culture of the private sector. I think that the Air Force not 
only needs to change the name of ORS and increase the 
workforce, it needs to give Space RCO the budget and 
flexibility to make quick decisions to innovate and ensure 
access to space.

                  IMPROVING SPACE PROGRAM CAPABILITIES

    Secretary Wilson, how do you aim to increase cooperation 
with the commercial space sector to improve our rapid launch 
capabilities? And you stated that Congress needs to accept 
risks in developing new space capabilities. What risks should 
Congress accept? And how will Space RCO and the Space and 
Missile Systems Center manage these risks?
    Secretary Wilson. Senator, you're right, we don't--the 
authorization bill last year changed the name. We don't want to 
just change the name, we want to change the way in which the 
new Space Rapid Capabilities Office does its work, and here are 
a few things that we're doing. First of all, we're adding 
additional people into the Space Rapid Capabilities Office. 
There will be about 50 more people added into that mission. We 
are selecting a new Director, who has a background that we 
think will be a good fit for an organization that's very high 
performing and that connects with what's going on in commercial 
industry.
    The rapid--it's modeled the ``Rapid Capabilities Office'' 
for the Air Force handles some of our most important--
strategically important--programs, usually highly secure 
programs, that go very quickly. It's a small office, and it 
reports directly to the Secretary, to kind of a board that 
includes the Chief and me. So it moves very quickly and under 
very senior authorities. We are working through what that looks 
like for the Space Rapid Capabilities Office so that they can 
have the same kind of dynamic in order to take advantage of 
path-breaking capabilities and spin them on into the Air Force 
through what used to be the Operationally Responsive Space 
Office.
    There's one other project that the Space RCO will be able 
to be part of. We've already set up a special innovation fund, 
the Space Enterprise Consortium (SpEC). It's part of the new 
authorities that the Congress has given us. It's a $500 million 
fund for innovative companies to propose new capabilities for 
space and to be able to contract with them with very simple 
contracts. We call them ``Other Transaction Authorities.'' We 
announced it in February. There are already 150 plus companies 
that have shown interest, joining as members of the SpEC. We 
just let the first two contracts, which are for microsatellites 
that will go directly to the geostationary orbit.
    Senator Udall. Yes. Thank you very much for that answer. 
And we really look forward to working with you on these issues.
    I hope, Mr. Chairman that we can work with you and the rest 
of the committee on the private sector needs in terms of 
securing facilities to do business with the Air Force.

                 IMPORTANCE OF ROCKET LAUNCH LOCATIONS

    Secondly, the Rocket Systems Launch Program has additional 
funds in this year's budget proposal to acquire small launch 
services for the Air Force. In addition, the Defense Advanced 
Research Projects Agency Challenge is offering a $10 million 
prize to a launch provider that can launch twice into low-Earth 
orbit from two different sites with the ultimate goal of 
increasing launch flexibility and perhaps using alternative 
inland launch locations. Spaceport America in New Mexico is one 
location positioned to support national security and support 
national security requirements for rapid launch capabilities.
    How important is it for the Air Force to have a diversity 
of launch locations, especially considering that existing 
coastal launch locations could be compromised or unable to be 
used due to weather?
    Secretary Wilson. Senator, we use two launch locations, at 
the Cape and Vandenberg Air Force Base. We also just recently 
contracted with Virgin Galactic for a launch off of--their 
approach is to launch rockets off of a 747, modified 747, and 
take it up to a 30,000-feet altitude and launch the rocket from 
underneath the wing, which is both cost effective and also 
gives you a lot of flexibility with respect to access to space 
because any airport that can take a 747 can launch.
    Inland launch has some disadvantages to it because your 
potential recovery zone or your safety zone is over land rather 
than water, and that's an issue even at the Cape with some 
trajectories. So that is the primary concern with an inland 
launch.
    Senator Udall. Yes. Well, we look forward to working with 
you on that. I think the issue of pilot shortage has been 
covered. I also have a question a little bit different there.

               QUALITY OF LIFE FOR REMOTE AIRCRAFT PILOTS

    But I wanted to ask as my final question, quality of life 
for remotely piloted aircraft pilots has been a topic that's 
come up repeatedly during my travels to Cannon and Holloman Air 
Force Bases. In addition, recognition of the important work 
they do to protect the homeland is greatly needed to improve 
their morale. How is the Air Force addressing the quality of 
life for the remotely piloted aircraft community? Has there 
been progress improving retention? And how can this committee 
work with you to improve retention and better recognize these 
pilots?
    General Goldfein. Sir, thanks for recognizing these great 
Airmen who are doing yeoman's work now today, as you know, 
across the globe.
    We started on this journey a few years ago, and our path 
that we were set on was to, first of all, increase the ratio of 
crew because what we had built, because of the acceleration of 
the demand signal, what we had built was a enterprise that was 
only doing combat operations, and every time we tried to mature 
the organization, we got more demand signal. So by having the 
Secretary of Defense stop the growth of caps, if you will, or 
the number of orbits to 60 orbits, and allowing us to grow the 
crew, we are now achieving a 10:1 crew ratio. That probably has 
more impact on quality of life. It also allows us to get these 
airmen into what we call a dwell, which is some period of time 
when they're in combat and some period of time they're in 
training, and we weren't able to do that before. And so by 
building up our numbers, we've done that. And then we've got a 
series of Force Improvement Programs that we're doing, not only 
managing them as a talent pool, but also looking at the 
broadening of this career field so that they can do the 
business of remotely piloted aircraft, but also get into some 
other exciting career fields that they're ideally suited for. 
So thanks for the question.
    Senator Udall. No, thank you very much. And that, outlining 
that, really helps me because when I and my staff travel out 
there, we'll be able to give them a good idea of what you're 
looking at.
    So thank you very much. I have some additional questions 
for the record, but we look forward to timely answers on those.
    Thank you very much.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Shelby. Thank you, Senator Udall.
    We appreciate, Secretary Wilson and General Goldfein, we 
appreciate your appearance before the committee. Senators will 
submit additional questions for the record, and we would hope 
you would respond to those questions within 30 days.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
          Questions Submitted to Hon. Dr. Heather Wilson and 
                       General David L. Goldfein
             Questions Submitted by Senator Mitch McConnell
           c-130j recapitalization for the air national guard
    Question. In the fiscal year 2017 defense appropriations law, 
Congress procured and directed two C-130Js to the Air National Guard, 
and in the recently enacted fiscal year 2018 omnibus appropriations 
law, Congress directed an additional six C-130Js to the Air National 
Guard. Can you please provide an update on the basing plans for these 
aircraft and describe the stationing process? How will the basing 
decision be made, and who holds the final decision? When are these 
congressionally added aircraft scheduled to deliver?
    Can you please provide an update on the basing plans for these 
aircraft and describe the stationing process?
    Answer. The intent is to recapitalize an existing, single ANG C-
130H unit with the new aircraft.
    Question. How will the basing decision be made, and who holds the 
final decision?
    Answer. In this case, the Air National Guard will be the lead 
agency in determining the beddown location for the eight C-130Js. AMC 
will provide oversight and input as the lead MAJCOM for C-130s. In this 
case, the ANG will use the Air Force Strategic Basing Process to 
achieve SecAF approval for the basing location of the eight C-130Js. 
The Commander, Air Mobility Command and Director of the Air National 
Guard will review and provide coordination on the basing decision 
package prior to SecAF approval.
    Question. When are these congressionally added aircraft scheduled 
to deliver?
    Answer:
  --Fiscal Year 2017 Congressional Add--Delivers 2 aircraft in fiscal 
        year 2021
  --Fiscal Year 2018 Congressional Add--Delivers 2 aircraft in fiscal 
        year 2022 and the remaining 4 in fiscal year 2023
    If the expected delivery schedule stays on track, the basing 
process should start no later than fiscal year 2019 in order to be 
ready for recapitalization of the selected ANG C-130 unit by fiscal 
year 2021.

                          SUBCOMMITTEE RECESS

    Senator Shelby. And subject to all that, the Defense 
Subcommittee will reconvene on Wednesday, June 6th, at 10:00 
a.m., to receive testimony from the Department of Defense 
related to innovation and research.
    The subcommittee stands in recess.
    [Whereupon, at 11:26 a.m., Thursday, May 17, the 
subcommittee was recessed, to reconvene at 10:00 a.m., 
Wednesday, June 6.]
</pre></body></html>
